No. 19-1039

In The

Supreme Court of the United States
PennEast Pipeline Company, LLC,
v.
State of New Jersey, et al.,

Petitioner,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
BRIEF OF AMICI CURIAE UNITED ASSOCIATION OF
JOURNEYMEN AND APPRENTICES OF THE
PLUMBING AND PIPE FITTING INDUSTRY OF THE
UNITED STATES AND CANADA, AFL-CIO;
INTERNATIONAL UNION OF OPERATING
ENGINEERS; INTERNATIONAL BROTHERHOOD OF
TEAMSTERS; LABORERS’ DISTRICT COUNCIL OF
EASTERN PENNSYLVANIA; AND NEW JERSEY STATE
BUILDING AND CONSTRUCTION TRADES COUNCIL
IN SUPPORT OF PETITIONER
Ellen O. Boardman
Counsel of Record
Anna Friedlander
Michael A. Gillman
O’Donoghue & O’Donoghue LLP
5301 Wisconsin Ave, NW
Suite 800
Washington, DC 20015
eboardman@odonoghuelaw.com
(202) 362-0041
Counsel for Amici Curiae
Mosaic - (301) 927-3800 - Cheverly, MD

49261_Ltrhd.indd

1

6/11/08

12:44:0

i
TABLE OF CONTENTS
STATEMENT OF INTEREST.........................

Page
1

SUMMARY OF ARGUMENT..........................

3

ARGUMENT.....................................................

5

I. THE THIRD CIRCUIT’S DECISION ESTABLISHES A BROAD PRECEDENT
THAT ALLOWS STATES UNILATERALLY TO NULLIFY FEDERAL PERMITS FOR CONSTRUCTION OF NEW
		NATURAL GAS INFRASTRUCTURE....

5

II. THE THIRD CIRCUIT’S DECISION
THREATENS THE LIVELIHOODS OF
THOUSANDS OF AMERICANS WHO
BUILD AND MAINTAIN THE U.S.
		NATURAL GAS INFRASTRUCTURE....

7

III. THE THIRD CIRCUIT’S DECISION
WOULD NEGATIVELY IMPACT THE
COUNTRY’S OVERBURDENED AND
AGING NATURAL GAS PIPELINE IN		FRASTRUCTURE...................................

11

A. The Third Circuit’s Decision Threatens to Decrease Reliability and Increase Prices for U.S. Natural Gas
			 Consumers..........................................

12

B. The Third Circuit’s Decision Threatens to Exacerbate Safety Concerns
Associated with the Country’s Aging
and Outdated Natural Gas Infra			 structure.............................................

14

CONCLUSION..................................................

17

iii
TABLE OF AUTHORITIES

Page

Cases
In re PennEast Pipeline Co. LLC, 938
F.3d 96 (3d Cir. 2019)...................................

6

NAACP v. Fed’l Power Comm’n,
425 U.S. 662 (1976).......................................

16

Statutes & Regulations
15 U.S.C. § 717f(h)............................................ passim
49 C.F.R. § 192..................................................

16

Other Authorities
Construction Job Quality Across the US
Energy Industries, N. Am.’s Bldg. Trades
Union (2020), https://bit.ly/304KyYO..........

10

Energy Market Savings: Report and Analysis,
Concentric Energy Advisors, Inc. (2015),
https://bit.ly/3kBmBBZ.................................

14

Estimated Energy Market Savings from
Additional Pipeline Infrastructure Serving
Eastern Pennsylvania and New Jersey:
Update for Winter 2017/2018, Concentric
Energy Advisors, Inc. (2018),
https://bit.ly/3sCbrQ1...................................

14

Natural Gas Infrastructure, Nat. Energy
Tech. Lab’y (last visited Mar. 3, 2021),
https://bityl.co/5nFB......................................

13

PennEast Pipeline Project Economic Impact
Analysis, Econsult Sol., Inc., Drexel Univ.
School of Econ. (2015),
https://bit.ly/3b6MjLs....................................

8, 14

PennEast Pipeline Project: Final
Environmental Impact Statement, Fed.
Energy Regul. Comm’n (2017)................. 13, 15, 16

iv
TABLE OF AUTHORITIES—Continued

S. Rep. No. 80-429 (1947).................................

Page
6

Union Workers Prefer Natural Gas, Oil
Sector Employment, Surveys Find,
Marcellus Shale Coal. (July 23, 2020),
http://bit.ly/3uD5PXP...................................

10

U.S. Department of Energy, U.S. Energy
Information Administration:
Annual Energy Outlook 2021, U.S. Energy
Info. Admin. (2021),
https://bit.ly/3sCOeNI.............................

12

Electricity explained, U.S. Energy Info.
Admin. (last updated Mar. 19, 2020),
http://bit.ly/37IKja6.................................

12

Natural gas explained, U.S. Energy Info.
Admin. (last updated Nov. 30, 2020),
http://bit.ly/2ZO7DiA...............................

12

Natural Gas Infrastructure Implications of
Increased Demand from the Electric
Power Sector, U.S. Energy Info. Admin.
(2015), https://bit.ly/304PZHn.................

13

State Historical Tables for 2019, U.S. Energy
Info. Admin. (last updated Feb. 2021),
https://bit.ly/381uQSC.............................

13

U.S. Department of Transportation, Pipeline &
Hazardous Materials Safety Administration:
Gas Transmission Miles by Decade Installed,
U.S. Dep’t of Transp. Pipeline and
Hazardous Materials Safety Admin.
(last visited Mar. 3, 2021),
https://bit.ly/3pSfVAu..............................

15

1
STATEMENT OF INTEREST
The following parties respectfully submit this brief
as Amici Curiae.1
The United Association of Journeymen and Apprentices of the Plumbing and Pipe Fitting Industry
of the United States and Canada, AFL-CIO (“UA”), is
an international labor organization representing
over 350,000 plumbers, pipefitters, sprinkler fitters,
service technicians, and welders. The UA’s membership includes 10,000–11,000 workers who perform
pipefitting and welding on pipelines. UA pipeliners
have worked on every major pipeline project in the
United States.
The International Union of Operating Engineers
(“IUOE”) is a diversified trade union that primarily
represents operating engineers, who work as heavy
equipment operators, mechanics, and surveyors in the
construction and pipeline industries; as well as stationary engineers, who work in operations and maintenance in building and industrial complexes, and in
the service and petrochemical industries. The IUOE
has approximately 400,000 members and 110 local
unions in the U.S. and Canada. Operating engineers
operate, maintain, and repair all manner of heavy
equipment on pipeline projects.
Founded in 1903, the International Brotherhood of
Teamsters (“Teamsters”) represents more than 1.4
million hardworking men and women across the U.S.,
No party or counsel for a party authored this brief in whole
or in part. No party, counsel for a party, or person other than
Amici Curiae, their members, or counsel made any monetary contribution intended to fund the preparation or submission of this
brief. All parties have consented to the filing of this brief.
1

2
Canada, and Puerto Rico. Teamster members work in
a wide variety of industries, including the construction industry. Approximately 3,000 Teamster members nationwide regularly work on pipeline projects,
moving material and people to, from, and around construction sites.
The Laborers’ District Council of Eastern Pennsylvania is a council of local unions affiliated with the
Laborers’ International Union of North America
(“LIUNA”) having territorial jurisdiction in 29 counties in Central and Northeastern Pennsylvania, including the counties through which the PennEast
pipeline will be constructed. Founded in 1903, LIUNA
is a general workers union representing over half-amillion employees in the construction industry and
in public service in the United States and Canada.
As the union of record in both Canada and the United States holding undisputed jurisdiction over the
craft of construction laborer, LIUNA represents the
men and women throughout North America who are
responsible for constructing the buildings, roads,
bridges, highways, energy, and other critical infrastructure that makes life in the United States and
Canada possible. On pipelines, LIUNA members
perform a wide variety of tasks related to clearing
the right of way, site preparation, pipe placement,
and clean-up and restoration of the landscape after
the pipeline is buried.
The New Jersey State Building and Construction
Trades Council (“NJ B&CTC”) coordinates activity
and provides resources to 15 affiliated trade unions in
the construction industry. It represents 13 Local
Building Trades Councils, more than 100 local unions,
and over 150,000 rank and file members within New
Jersey. Many of the workers who the NJ B&CTC rep-

3
resents are members of the UA, IUOE, LIUNA, and
Teamsters who regularly perform work on pipeline
projects in New Jersey and the surrounding area. Created in 1903, the NJ B&CTC has helped its affiliated
building trades unions make job sites safer, deliver apprenticeship and journey-level training, and organize
new workers. The NJ B&CTC supports legislation that
affects working families and assists in securing improved wages, hours, and working conditions through
collective bargaining and project labor agreements.
The above Amici Curiae, collectively referred to
herein as the “Pipeline Crafts” or the “Crafts,” represent the thousands of union workers who would perform all aspects of pipeline construction on the PennEast Pipeline (the “Pipeline”). The Pipeline Crafts
represent workers who would be severely impacted by
the Third Circuit’s decision and the resulting loss of
jobs and associated economic benefits caused by the
abrupt halting of the PennEast Pipeline. And the negative effects of the Third Circuit’s decision would not
be limited to this case. If the decision stands, it would
provide a basis for any State to take the same position
and effectively stop interstate natural gas pipeline
projects at the very last step after all permits have
been obtained, just before construction would begin.
The Pipeline Crafts therefore urge the Court to reverse
the decision below and thus prevent State interference
in the Natural Gas Act (“NGA”) certificate process, as
intended by Congress and expressed in the NGA.
SUMMARY OF ARGUMENT
Section 7(h) of the NGA grants an unqualified “right
of eminent domain” to “any holder of a certificate of
public convenience and necessity,” issued by the Federal Energy Regulatory Commission (“FERC”), in order to secure “the necessary land or other property” to

4
build, operate, and maintain interstate natural gas
infrastructure. 15 U.S.C. § 717f(h). The legislative
history of Section 7(h) shows that Congress chose to
amend the NGA to give certificate holders this express
and unqualified right of eminent domain specifically
in order to stop State interference with the building of
FERC-approved interstate natural gas pipelines.
Nevertheless, in its decision below, the Third Circuit incorrectly found that Congress’s grant of eminent domain in the NGA is not equivalent to the federal power of eminent domain and can be trumped by
States’ sovereign immunity under the 11th Amendment. The Third Circuit’s ruling therefore allows a
State to reject FERC’s statutorily-guided decision to
approve a proposed interstate pipeline project in favor
of the State’s own judgment on whether the project
should move forward—the exact result Congress
sought to avoid in enacting Section 7(h).
The Third Circuit’s decision will have serious and
long-lasting negative consequences on the entire natural gas industry, including the many thousands of
union workers who have trained extensively to build
and maintain the natural gas pipeline infrastructure. What makes this result even more frustrating
is the widely-acknowledged fact that the natural gas
infrastructure needs to be upgraded and replaced to
ensure that it can provide reliable and affordable energy to American consumers. The need for new and
upgraded natural gas pipelines is becoming more imperative due to heavy and increasing demand for
natural gas and safety risks posed by the large percentage of the nation’s natural gas pipeline system
that was built 50 or more years ago. These aging
pipelines utilize outdated techniques and technology
that increase the likelihood of leaks and other dan-

5
gers compared to modern pipelines, which feature
advanced materials and technology that enhance
safety and reliability.
The Pipeline Crafts therefore urge the Court to reverse the Third Circuit’s decision in order to fulfill the
NGA’s purpose of streamlining interstate natural gas
pipeline approval under the careful process set forth
in the statute, free from State interference.
ARGUMENT
I. 
THE THIRD CIRCUIT’S DECISION ESTABLISHES A BROAD PRECEDENT THAT ALLOWS STATES UNILATERALLY TO NULLIFY
FEDERAL PERMITS FOR CONSTRUCTION
OF NEW NATURAL GAS INFRASTRUCTURE.
The Third Circuit’s decision establishes a new and
far-reaching interpretation of the NGA under which
States will be able to unilaterally prevent interstate
pipelines from being built, even after those pipelines
have received all required permits and authorizations.
In this brief, the Pipeline Crafts will not repeat all of
the Petitioner’s legal arguments, but do join in them.
The Crafts stress, however, that the Third Circuit’s
interpretation directly conflicts with Congress’s purpose in granting eminent domain authority through
the NGA to ensure that natural gas infrastructure is
built for the public good and specifically that States be
prevented from interfering with that purpose.
Section 7(h) of the NGA grants the “right of eminent
domain” to “any holder of a certificate of public convenience and necessity” issued by FERC for the construction of an interstate natural gas pipeline. 15
U.S.C. § 717f(h). Section 7(h) was not part of the
NGA when it became law in 1938, but was added in
1947 specifically to address the problem of States in-

6
terfering with FERC’s exclusive jurisdiction over interstate natural gas pipelines. The Senate Committee on Interstate and Foreign Commerce’s report
recommending passage of Section 7(h) presented, as
the sole justification for its recommendation, the
problem of States attempting to interfere with certificate holders’ construction of interstate natural gas
pipelines. See S. Rep. No. 80-429 (1947). Thus, the
Committee recommended that Congress, “correct . . .
the [NGA] by passage of . . . the right of eminent domain [for] those natural gas companies which have
qualified under the [NGA] to carry out and perform
the terms of any certificate of public convenience and
necessity.” Id. at 3. The Committee’s report concluded that it would “defeat[] the very objectives of the
[NGA],” and FERC’s “exclusive jurisdiction to regulate the transportation of natural gas in interstate
commerce,” if States could “nullif[y]” FERC’s certificates by withholding or requiring additional conditions before granting certificate holders the right of
eminent domain. Id. at 3-4.
And yet, more than 70 years later, the Third Circuit’s decision allows States to nullify a FERC-issued
certificate of public convenience and necessity by asserting blanket 11th Amendment sovereign immunity to an eminent domain proceeding, yielding the exact outcome Section 7(h) was designed to prevent.
Even more troubling, the Third Circuit rests its decision on the implausible conclusion that “nothing in
the NGA indicates that Congress intended” to prevent this result. See In re PennEast Pipeline Co., LLC,
938 F.3d 96, 111 (3d Cir. 2019). This Court should
reverse the Third Circuit’s holding in this regard in
order to restore the NGA’s purpose, which establishes
a process for interstate infrastructure development
at the federal level.

7
II. THE THIRD CIRCUIT’S DECISION THREATENS THE LIVELIHOODS OF THOUSANDS
OF AMERICANS WHO BUILD AND MAINTAIN THE U.S. NATURAL GAS INFRASTRUCTURE.
The Pipeline Crafts represent the workers who
build and maintain the nation’s natural gas pipeline
infrastructure. These workers are highly trained
and experienced; they possess specialized skills that
enable them to perform their work according to the
highest standards and most up-to-date techniques.
The Pipeline Crafts work under collectively bargained agreements, including the National Pipe
Line Agreement (“NPLA”), which guarantee hourly
wages commensurate with the Crafts’ specialized
skills; health insurance; hourly pension contributions and other fringe benefits; good working conditions; and job protections, among other valuable
tangible and intangible compensation. In recent
years, however, legal and other challenges seeking
to delay and/or stop new pipeline development have
increased dramatically, imperiling workers’ livelihoods. The Third Circuit’s ruling would exacerbate
this problem by allowing States to nullify pipeline
permits at the final stage for any reason or no reason
at all, whether or not that decision is based on the
public’s needs.
The PennEast Pipeline presents a prime example of
all that the Crafts and the workers they represent
stand to lose from the Third Circuit’s decision. PennEast has committed to use skilled union workers from
the Pipeline Crafts to construct the Pipeline. The
Crafts estimate that construction of the Pipeline would
create approximately 2.45 million hours of work under
the NPLA and generate approximately $120 million in

8
wages. In accordance with the NPLA, the contractors
building the Pipeline would also remit fringe benefit
contributions in set amounts for each hour worked by
every employee. The Crafts expect that, for work on
the PennEast Pipeline, fringe benefit contributions
under the NPLA would total over $50 million—approximately $25.7 million to welfare funds providing
health insurance and associated benefits for pipeline
workers and their families and $25 million in payments to workers’ retirement funds. About $1.5 million in hourly fringe benefit contributions would also
be remitted to fund training, education, and safety
programs, including for new entrants to the industry.
2

The work that the PennEast Pipeline would create
for the Pipeline Crafts is the exact type that is so badly needed in the U.S. today. It is skilled work for bluecollar, highly-trained workers that supplies good wages and benefits and allows the Pipeline Crafts to fund
training for existing and new workers looking to build
careers. At the same time, it improves the natural gas
infrastructure, which benefits the public at large.
Unfortunately, since delays and obstruction of pipeline permitting have become increasingly common nationwide over the last several years, members of the
Pipeline Crafts have already seen a dramatic decline
in available jobs and have experienced associated
hardships. With major mainline pipeline projects
canceled or on indefinite hold due to these delays,
hours worked by the Pipeline Crafts under the NPLA
These figures represent only a portion of the over 12,000 jobs
and $740 million in total wages that design and construction of
the Pipeline is anticipated to create. PennEast Pipeline Project
Economic Impact Analysis, Econsult Sol., Inc., Drexel Univ.
School of Econ. 3 (2015), https://bit.ly/3b6MjLs [hereinafter
Econsult Report].
2

9
have fallen 56 percent since 2018. Obviously, this decline in hours causes a severe decrease in wages for
workers in the Pipeline Crafts. Loss of hours also
means workers often lose eligibility for health insurance through their jointly-sponsored union and employer health plans, which generally require a minimum number of hours worked during set time periods,
e.g., monthly or annually, to establish and maintain
coverage. Similarly, retirement benefits are computed based on length of time and/or hours worked and so
workers who experience lapses in employment risk
not accumulating sufficient pension benefits to make
ends meet during retirement.
Nevertheless, a public narrative has developed that
the loss of these jobs is insignificant because: (1) pipeline construction jobs are “temporary” and (2) pipeline
construction workers can simply slide into jobs in other industries. But these narratives are misguided.
When viewed correctly, the points they raise actually
illustrate precisely why State obstruction in the permitting process and other specious legal roadblocks to
the approval of new pipeline infrastructure pose extreme harm to workers.
First, pipeline construction jobs are only “temporary” to the same extent as any other project-based
occupation. Just like a commercial architect relies on
new commercial development deals, or a lawyer relies
on a steady supply of cases, controversies and clients,
pipeline construction workers rely on a steady supply
of projects to provide complete incomes and retirement savings for themselves and their families over
the course of their careers. Construction, by definition, is a temporary activity, but that only makes the
supply of construction projects even more important
for the workers who make their careers in it.

10
Second, it is not true that all of the workers who
build large diameter, high capacity natural gas pipelines like the PennEast Pipeline can simply transition to other occupations in the energy industry or
elsewhere, as policymakers and others have suggested. The idea of finding a job in another industry, including in renewable energy, is not viable for many
pipeline construction workers for a number of reasons. For one, jobs in pipeline construction do not
necessarily translate to jobs in renewable energy.
According to a recent study conducted by North
America’s Building Trades Unions (“NABTU”), the
trades most in demand for renewable energy do not
align with the trades most in demand for the natural
gas industry. Construction Job Quality Across the
US Energy Industries, N. Am.’s Bldg. Trades Unions
15 (2020), https://bit.ly/304KyYO. See also Union
Workers Prefer Natural Gas, Oil Sector Employment,
Surveys Find, Marcellus Shale Coal. (July 23, 2020),
http://bit.ly/3uD5PXP (quoting Tom Kriger, NABTU’s Director of Education and Research: “You can’t
just interchange the jobs from oil and gas construction to renewables construction, because you’ll leave
out many workers, you’ll leave out many crafts, and
you won’t have those pathways into the middle class
that these good jobs provide.”).
Therefore, in order to transition to jobs in renewable energy, pipeline workers would have to re-train
in entirely new skill sets, losing the careers for which
they have trained so extensively. In the end, workers
affected by the unavailability of pipeline jobs find that
the jobs available to them often do not compare in
terms of wages and benefits to the skilled pipeline
construction jobs for which they have trained. The
disparity is even greater when replacement jobs are
not covered by a collective bargaining agreement.

11
Roadblocks to pipeline construction and a corresponding decline in available jobs also make the Pipeline Crafts less able to add new members and advance
the ones they have. In the unionized pipeline construction industry, entry-level members require a substantial amount of on-the-job training. When there is a
shortage of jobs or uncertain timelines for permitting,
unions cannot bring in as many entry-level members
as they would otherwise because the opportunities for
placing such members in employment are reduced.
For all of these reasons, the Third Circuit’s incorrect
decision will inflict severe harm on the nation’s skilled
natural gas pipeline workforce. Sweeping changes to
the permitting and construction process for pipelines
must be done through Congress, not accomplished by
State executives in contravention of federal statutes.
Pulling the rug out from under the workers after projects have been approved is not only legally impermissible in this instance, but it also maximizes the harmful economic impacts those workers experience.
III. THE THIRD CIRCUIT’S DECISION WOULD
NEGATIVELY IMPACT THE COUNTRY’S
OVERBURDENED AND AGING NATURAL
GAS PIPELINE INFRASTRUCTURE.
As representatives of the nation’s pipeline construction workforce, the Pipeline Crafts are acutely familiar
with the condition of the U.S. natural gas infrastructure and the urgent need for it to be updated and upgraded. Simply put, pipelines are the safest and most
efficient method to transport natural gas. But the U.S.
natural gas infrastructure is subject to demand that
exceeds its capacity. The demand continues to grow
while the infrastructure suffers from age-related integrity risks that modern pipeline technology prevents.
While the NGA tasks FERC with deciding whether

12
new pipeline infrastructure is in the public interest,
the Third Circuit’s ruling allows State executives to
unilaterally overrule FERC’s reasoned and expert
judgment in this regard for any reason or for no reason
at all, exacerbating the potential for disastrous effects
on natural gas consumers and the public at large.
A. The Third Circuit’s Decision Threatens to
Decrease Reliability and Increase Prices
for U.S. Natural Gas Consumers.
Natural gas powers about half of the homes in the
United States. Natural gas explained, U.S. Energy
Info. Admin. (last updated Nov. 30, 2020), http://bit.
ly/2ZO7DiA. In 2019, the most recent year for which
data is available, natural gas was the largest source of
U.S. electricity generation by far at 38 percent, followed by coal (23%) and nuclear (20%), with wind
(7.3%) and hydro (6.6%) trailing behind. Solar, biomass, petroleum, and geothermal accounted for less
than 2 percent each. Electricity explained, U.S. Energy Info. Admin. (last updated Mar. 19, 2020), http://bit.
ly/37IKja6. The share of U.S. electricity generated by
natural gas has consistently trended upwards over the
years, from 15.8 percent of all sources in 2000 to 24
percent in 2010 and now 38 percent in 2019. Id. The
U.S. Energy Information Administration, the arm of
the Department of Energy tasked with collecting, analyzing, and disseminating energy information, expects
this upward trend to continue through 2050, when its
projections end. Annual Energy Outlook 2021, U.S.
Energy Info. Admin. 3 (2021), https://bit.ly/3sCOeNI.
New Jersey and Pennsylvania, the States the Penn­
East Pipeline would serve, are both heavily dependent
on natural gas. Natural gas accounted for about 57
percent and 42 percent of New Jersey and Pennsylvania’s total electric power generation in 2019 respec-

13
tively—percentages that exceed natural gas’s share of
the country’s total electrical output. See State Historical Tables for 2019, U.S. Energy Info. Admin. (last updated Feb. 2021), https://bit.ly/381uQSC. Pennsylvania
ranks 4th in the U.S. in terms of natural gas electricity
generation, while New Jersey ranks 13th. Id.
With natural gas demand high and getting higher,
it is imperative that there be a safe and efficient system in place to deliver it to consumers. Unfortunately,
the U.S. natural gas infrastructure falls short of this
goal, with many portions at or over maximum capacity. Natural Gas Infrastructure, Nat. Energy Tech.
Lab’y (last visited Mar. 3, 2021), https://bityl.co/5nFB.
With regard to the PennEast Pipeline specifically, its
Final Environmental Impact Statement (“FEIS”) determined that “[t]here is no available capacity for existing pipeline systems to transport the required volumes of natural gas to the range of delivery points
proposed by PennEast.” PennEast Pipeline Project:
Final Environmental Impact Statement, Fed. Energy
Regul. Comm’n, Sec. 5.1.13, at 5-18 (2017) [hereinafter FEIS]. Lack of pipeline capacity makes natural
gas more expensive to consumers and creates supply
shortfalls, leaving consumers without power during
times of peak demand when electricity is needed most.
Natural Gas Infrastructure Implications of Increased
Demand from the Electric Power Sector, U.S. Energy
Info. Admin. 4 (2015), https://bit.ly/304PZHn.
It is into this environment of energy insecurity that
the PennEast Pipeline would deliver staggering savings to energy consumers. One study of the Pipeline’s
expected economic impact—prepared at the time it
was proposed and the approval process began—shows
that, had the pipeline been part of the local energy infrastructure during the winter of 2013-2014, when

14
conditions were especially cold for a prolonged period
of time, consumers in Eastern Pennsylvania and New
Jersey would have saved an estimated $890 million in
energy costs. See Energy Market Savings: Report and
Analysis, Concentric Energy Advisors, Inc. 3 (2015),
https://bit.ly/3kBmBBZ. Several years later, while
tied up in a long regulatory process, an updated study
showed that the Pipeline would have continued saving
consumers money—to the tune of an additional $435
million in savings in the winter of 2017-2018, when
demand was high and natural gas and electric prices
were volatile. Estimated Energy Market Savings from
Additional Pipeline Infrastructure Serving Eastern
Pennsylvania and New Jersey: Update for Winter
2017/2018, Concentric Energy Advisors, Inc. 3 (2018),
https://bit.ly/3sCbrQ1. These energy savings, in turn,
produce economic benefits in the form of increased economic activity by the affected consumers. In the case
of the PennEast Pipeline, another economic study
found that every additional $10 million in disposable
income derived from energy savings could be expected
to generate an estimated $13.5 million of total economic impact and support 90 jobs. Econsult Report, at 16.
By allowing States to nullify permits for new natural gas infrastructure, the Third Circuit’s decision
poses grave risks to the already maxed-out natural
gas infrastructure in the U.S. and the consumers who
rely on it for reliable and affordable energy.
B. The Third Circuit’s Decision Threatens to
Exacerbate Safety Concerns Associated
with the Country’s Aging and Outdated
Natural Gas Infrastructure.
According to data maintained by the U.S. Department of Transportation’s Pipeline and Hazardous Materials Safety Administration (PHMSA), 54.6 percent

15
of the more than 300,000 miles of U.S. natural gas
transmission pipelines—large diameter pipes that
move natural gas around the country—were put in
place before 1970. Gas Transmission Miles by Decade
Installed, U.S. Dep’t of Transp. Pipeline and Hazardous Materials Safety Admin. (last visited Mar. 3, 2021),
https://bit.ly/3pSfVAu. These pipelines are often referred to as “pre-regulation” because they were built
before the first federal pipeline safety regulations were
promulgated in November 1970. Pre-regulation pipelines were built using inferior and outdated materials,
welding techniques, and quality control compared to
modern pipelines, making them more prone to failure
and able to transport less capacity. FEIS, Sec. 4.11.2,
at 4-307 (“The frequency of significant [natural gas
pipeline leaks] is strongly dependent on age.”).
By contrast, modern pipelines feature many improvements that promote reliability and safety. The
PennEast Pipeline, for example, would be built using
modern welding techniques, would feature the most
advanced pipe coatings and would be equipped with a
cathodic protection system that protects against corrosion, as well as continuous gas and other leak detection devices. See id. Sec. 2.6, at 2-17; Sec. 4.10, at 4-250.
The Pipeline would also be electronically monitored 24
hours a day, 365 days a year by PennEast’s Gas Control Center, which would use a computerized gas-monitoring system to read pressures along the pipeline on
a continuous basis. The Gas Control Center would be
able to trigger remote shut-off valves at the first sign of
a leak or any other problem to isolate the affected segment of pipe. Id. Sec. 5.1.11, at 5-17. Before being
placed in service, 100 percent of the Pipelines welds
would be inspected (even where federal regulations
only require that 10 percent of the welds be tested) and
the entire line would be hydrostatically tested at a

16
maximum pressure exceeding industry standards
identified in 49 C.F.R. § 192. Id. Sec. 4.11.1, at 4-304.
After it is put in service, the Pipeline would be routinely inspected using “smart pig” tools that periodically pass through the entire line checking for corrosion or pitting on the inner pipeline wall that might
result in leaks in addition to other on-the-ground and
aerial inspections. Id. Sec. 4.11.1, at 4-306.
With these extensive safety features, and built by a
highly skilled union workforce, PennEast represents
the type of modern natural gas infrastructure that is
vital to relieve the heavy demands currently afflicting
the natural gas pipeline infrastructure. Without this
type of new upgraded infrastructure, natural gas transporters will have little choice but to keep using aging,
less reliable pipelines that lack modern safety features
just to do their best to meet regional energy needs, to
the detriment of consumers and local communities. By
allowing States to effectively nullify FERC decisions to
permit new infrastructure, the Third Circuit’s decision
contravenes the NGA’s principal purpose of serving the
“public interest” by “promot[ing] the orderly production
of plentiful supplies of . . . natural gas at just and reasonable rates.” NAACP v. Fed. Power Comm’n, 425
U.S. 662, 670 (1976).

17
CONCLUSION
For the foregoing reasons, Amici respectfully urge
the Court to reverse the decision below.
Respectfully submitted,
ellen o. Boardman
Counsel of Record
Anna frIedlander
MIChael A. GIllman
o’Donoghue & o’Donoghue LLP
5301 Wisconsin Ave, NW
Suite 800
Washington, DC 20015
eboardman@odonoghuelaw.com
(202) 362-0041
Counsel for Amici Curiae

